                                  U.S. DEPARTMENT OF EDUCATION

                                        OFFICE OF INSPECTOR GENERAL 

                                             75 Park Place, 12th Floor 

                                            New York, New York 10007 



                                                            March 30, 2005

                                                                                                         Control Number
                                                                                                         ED-OIG/A02-E0019

Honorable Gloria E. Baquero Lleras
Secretary of Education
Puerto Rico Department of Education
Calle Teniente González, Esq. Calle Calaf – 12th Floor
Urb. Tres Monjitas
San Juan, Puerto Rico 00919

Dear Secretary Baquero:

This is our final audit report entitled Puerto Rico Department of Education’s (PRDE) Migrant
Education Program (MEP). The objectives of our audit were to determine if: (1) students
recruited in PRDE’s MEP were eligible; and (2) PRDE’s MEP funds were used for the intended
purpose. We found that all 171 MEP students sampled were ineligible, resulting in
approximately $43,824 in MEP grant funds not being used for the intended purpose. Our
interviews with PRDE’s MEP recruiters revealed that they did not follow Federal requirements
when enrolling students in the program.

We provided a draft of this report to PRDE. In its response, dated March 11, 2005, PRDE did
not dispute our finding and recommendations. PRDE stated it was working with MEP program
officials from the U.S. Department of Education (ED), through the Cooperative Audit Resolution
and Oversight Initiative (CAROI) process,1 and under the Compliance Agreement entered into
on October 25, 2004,2 to improve its MEP program. We have summarized PRDE’s comments
after the finding and included the comments in their entirety as an Attachment.

                                                          BACKGROUND

The MEP is authorized under Part C of Title I of the Elementary and Secondary Education Act
of 1965, as amended. Federal regulations define a MEP eligible migratory child as a child who
is, or whose parent, spouse, or guardian is, a migratory agricultural worker, including a
migratory dairy worker, or a migratory fisher, and who, in the preceding 36 months, has moved

1	
     CAROI is a collaborative method used by ED to provide alternative and creative approaches to resolve audit
     findings, as well as their underlying causes.
2	
     The Commonwealth of Puerto Rico (Puerto Rico), PRDE, and ED entered into a three-year Compliance
     Agreement. Through this agreement, Puerto Rico and PRDE, with the assistance of ED, agreed to develop or
     complete integrated and systemic solutions to problems they have had in the management of Federal education
     funds and programs.

               Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
                                                                                              Final Report
Audit of PRDE’s Migrant Education Program                                               ED-OIG/A02-E0019

from one school district to another, to obtain temporary or seasonal employment in agricultural
or fishing work as a principal means of livelihood. The goal of the MEP is to ensure that all
migrant students reach challenging academic standards and graduate with a high school diploma
or its equivalent, a General Education Development (GED) certificate, that prepares them for
responsible citizenship, further learning, and productive employment. Federal funds are
allocated by formula to state education agencies, based on each state's per pupil expenditure for
education and counts of eligible migratory children, aged 3 through 21, residing within the state.
PRDE's MEP authorized funding for award year 2003-2004 was $3,879,778. A total of 15,139
students participated in the MEP during the award year.

ED Office of Inspector General’s (OIG) Investigative Services provided ED-OIG’s Audit
Services with initial data based on a review they recently performed. The review found that all
16 students reviewed did not meet MEP eligibility criteria. Interviews with parents of the 16
MEP participants revealed that none of them had moved as a result of obtaining employment in
agricultural or fishing work. PRDE’s MEP recruiters stated that during the orientation provided
by PRDE officials, they were told that MEP-qualifying jobs could supplement the main income-
generating employment of the parents, and that products produced in the backyard, such as
bananas and/or plantains, used for personal consumption, could also meet the eligibility
requirement for the MEP. The recruiters also indicated that if a person had a banana plant and
used the bananas to prepare products to sell, then the activity would be eligible for the MEP. A
former MEP recruiter stated that PRDE officials told them that food preparation included
working in a fast food restaurant, and that they were questioned when the number of students
enrolled in the program decreased.

                                              AUDIT RESULTS

Finding: PRDE recruited ineligible students for the Migrant Education Program

During the period July 1, 2003, through June 30, 2004, PRDE recruited students for the MEP
who did not meet all the requirements to be eligible for the program. We reviewed a total of 94
Certificates of Eligibility (COE),3 representing 171 students, and found that all 171 students were
ineligible according to MEP requirements. As a result, approximately $43,8244 in MEP grant
funds were used for ineligible purposes. Additionally, ED could not be assured that the total of
$3,879,778 in PRDE’s MEP funds granted during the period reviewed, were properly expended.
Our interviews with PRDE’s MEP recruiters revealed that they did not follow Federal
requirements to determine the students’ eligibility as migratory children.

This MEP eligibility issue was not identified in the 2003 Single Audit of PRDE because the
Independent Public Accountants’ (IPA) auditors relied upon guidance from ED’s Office of
Elementary and Secondary Education (OESE), which stated that the only document needed to
support whether a student is eligible for the MEP is the COE. The IPA did not test the validity
of the COEs. PRDE had demonstrated that it did maintain COEs to support participants’
eligibility for the program.

3
    A COE is the form required to document a student’s eligibility in the MEP. 

4
    This amount represents a prorated share based on the MEP funding authorized for award year 2003-2004 and the 

    number of students who participated in the program during the award year.

                                                         2

                                                                                                 Final Report
Audit of PRDE’s Migrant Education Program                                                  ED-OIG/A02-E0019

We also found that the master list of MEP active participants, maintained by PRDE’s central
level, differed from the lists maintained by the schools. PRDE’s master list included more
participants than the schools’ lists. This occurred because the program’s recruiters and social
workers were not aware that they had to send the inactive students’ files to PRDE’s central level
for PRDE to withdraw the students from the program. As a result, PRDE’s master list was not
properly updated, and it overstated the MEP actual participants.

Pursuant to 34 C.F.R. § 200.81(d)(1),5 “Migratory child means a child who is, or whose parent,
spouse, or guardian is, a migratory agricultural worker, including a migratory dairy worker, or a
migratory fisher, and who, in the preceding 36 months, in order to obtain, or accompany such
parent, spouse, or guardian in order to obtain, temporary or seasonal employment in agricultural
or fishing work − has moved from one school district to another.”

Interviews with the 94 parents of the claimed 171 migratory children in our sample disclosed that
the families moved primarily to purchase a house, because they had separated from their spouse,
or for other personal reasons. In addition, some families had never moved, and the students had
always attended the same school. None of the parents interviewed stated that the reason for the
move was to obtain employment in agricultural or fishing work. Additionally, the interviews
disclosed that the majority of the parents had never worked in the qualifying activity shown on
the COE.

According to the recruiting manual provided by PRDE, the procedures were very specific
regarding student eligibility. However, MEP recruiters we interviewed stated that they waived
the intent of the move requirement because, in Puerto Rico, there were very few people who
would move with the intent to work in agricultural or fishing work.

Recommendations

We recommend that the Assistant Secretary for OESE require PRDE to:

1.1 	      Return to ED $43,824 of MEP funds expended for ineligible students;

1.2 	      Establish controls to ensure MEP recruiters follow Federal requirements when enrolling
           students in the program;

1.3 	      Require MEP social workers to submit a student’s file when a student withdraws from the
           program so that PRDE’s central level can determine correctly the total MEP participants
           to be included on PRDE’s master list;

1.4 	      Verify the COEs of all students currently enrolled in the MEP that were not included in
           our sample to determine whether they are eligible to continue participating in the
           program, and return to ED any funds received on the basis of ineligible students; and



5
    Unless otherwise specified, all regulatory citations are to the July 1, 2003 volume.


                                                             3
                                                                                     Final Report
Audit of PRDE’s Migrant Education Program                                      ED-OIG/A02-E0019

1.5 	   Ensure that the IPAs perform sufficient work to determine students’ eligibility to
        participate in the MEP in the future.

PRDE’s response

In general, PRDE agreed with our finding and recommendations. PRDE stated it was working in
close cooperation with MEP program officials from ED to prepare a corrective action plan to
improve current procedures, and institute new procedures that will ensure that MEP funds are
spent in accordance with Federal requirements. Under the corrective action plan, PRDE will

• 	 conduct a re-interview process to determine the defect rate of the current migrant eligibility
    list, revise the child count data from prior years, and take any required personnel actions
    (such as termination, demotion, etc.) based on the information gathered,
• 	 identify all ineligible children previously identified as eligible and terminate their receipt of
    MEP services,
• 	 correct any fiscal deficiencies occurring as a result of incorrect eligibility determinations,
• 	 terminate and/or downsize projects that serve ineligible migrant children, and
• 	 establish and strengthen quality control for the program.

PRDE requested that the required actions to resolve this audit, the corrective actions undertaken
with the program office, and the remedial actions under the Compliance Agreement be combined
and consolidated through the existing CAROI process.

OIG’s reply

We considered PRDE’s response, but did not change our finding and recommendations. PRDE’s
efforts to improve current procedures through the CAROI process may be considered by ED’s
Assistant Secretary for the Office of Elementary and Secondary Education as part of the audit
resolution process. If fully implemented, the corrective actions PRDE described in its response
should help improve its MEP program in a manner consistent with Federal program and grant
management requirements. However, PRDE must return to ED the $43,824 of MEP funds
expended for ineligible students.

                       OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine if: (1) students recruited in PRDE’s MEP were
eligible; and (2) PRDE’s MEP funds were used for the intended purpose.

To accomplish the audit objectives, we interviewed officials from PRDE’s MEP. In addition, we
verified with the parents of MEP participants the information included in the COEs. We
performed our fieldwork at PRDE’s offices in Hato Rey, Puerto Rico from August 12, 2004,
through December 8, 2004, the date of our exit conference.

To verify the information included in the COEs, we interviewed MEP participants at their homes
from September 10, 2004, through November 29, 2004. We also interviewed some parents we



                                                  4

                                                                                       Final Report
Audit of PRDE’s Migrant Education Program                                        ED-OIG/A02-E0019

could not initially contact at home through visits at the schools from November 9, 2004, through
November 15, 2004.

To achieve our audit objectives, we selected a random sample of the MEP participants for the
award period July 1, 2003, through June 30, 2004, from the list provided by PRDE. We
stratified our sample by participant volume. The universe of MEP participants for 2003-2004
consisted of 989 schools with 15,139 students.

Our sample included 20 schools and 1,009 MEP participants. The sample of schools was
stratified by participant volume, omitting schools with a participant volume under 25, using the
following strata:
                          Range                                         Number
                       of students                                     of schools

                     100 and above                                              2
                     50 through 99                                               8
                     25 through 49                                              10

We performed interviews of MEP participants at 5 of the 20 schools and interviewed 94 parents,
representing 171 participants. The five schools visited were Guillermina Rosado de Ayala from
the Loiza school district, Coquí Salinas from the Salinas school district, Pedro Melendez Playita
Cortada and Ana Valdejuly from the Santa Isabel school district, and Eugenio Maria de Hostos
from the Canóvanas school district. We judgmentally selected the 5 schools from the sample of
20 schools based on the volume of MEP participants and the completeness of the address
information provided in the COE. After obtaining the results of the interviews at these five
schools, we decided not to continue with the interviews at the other 15 schools.

To achieve our audit objectives, we relied on computer-processed data provided by PRDE. To
test the reliability and completeness of PRDE’s data, we compared the schools’ lists of MEP
participants with the list that PRDE’s central level provided. Based upon this test, we concluded
that the PRDE data was not complete, but was sufficiently reliable for our audit purposes as
supplemented with more complete school data.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.

                           STATEMENT ON INTERNAL CONTROL

We did not review the internal control structure of PRDE because we previously reviewed the
internal controls, policies, procedures, and practices applicable to PRDE’s administration of
contracts in recent ED/OIG audits (A02-C0017, A02-D0014, and A02-D0020). PRDE has yet to
implement our major internal control recommendations. Based on previous knowledge, we
determined the level of control risk, that is the risk that material errors, or irregularities, or illegal
actions may occur, to be high.




                                                    5
                                                                                 Final Report
Audit of PRDE’s Migrant Education Program                                  ED-OIG/A02-E0019

                               ADMINISTRATIVE MATTERS 


If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on the audit:

               Raymond J. Simon
               U.S. Department of Education 

               Office of Elementary and Secondary Education 

               400 Maryland Ave., SW 

               Washington, D.C. 20202 


It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be greatly appreciated.

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                     Sincerely,

                                             /s/

                                     Daniel P. Schultz
                                     Regional Inspector General
                                      for Audit




                                                   6

                                                                                                                                            Final Report
Audit of PRDE’s Migrant Education Program                                                                                             ED-OIG/A02-E0019

                                                                         Attachment




                                               CODlDlonwealth of Puerto Rico
                                                 DEPART MENT OF EDUCAnON

      OFFICt: OF Ft:Ol:atAL AFFAIRS




                    Man:h I I. 2005


                    LJamd I'. S"hulu
                    Rcgionul InSpI.'Ctor GClll:ral for AudLt
                    U.S. Department of Edueatiun
                    Olliee of Inspe<.:tor General
                    75 rark Place, Room 1207
                    New York. NY 10007

                    Dear Mr. Schultz:

                            On February 10, 2005. thc UnLlcd Stales Department uf Educatiun. Ollice of
                    lnspt'cLUr U",n,,;r<ll, issu,,;d Dran AudLl Report Cuntrol Number ACN:A02·EOOI9. This
                    Dmft Audit Report presented the results of OIO's audil of PI/;:rlu Ricu Vl!jX,rlml!nl oj
                    £dUC(IIlU" '~, (PRDE) Migrant EduClLliOl' Progmm. PR O E appr .....,ml"'s th", OpportUlllty 10
                    respond to the Olliee uf Inspector Gcncral 's (O[G) draft audit repon.

                               I'IU>E has the following              r..:;;pon~e       LU the lin\.lIng contallled 1Il th..: draft audit
                    rq'o,'.

                    R es po nse

                              rh", drati l1udn lindmg slates Ihlll dunng tht: cuvt:rt:d peflud "ROE "n.:'cruncd
                    m,,;hglbl,,; students for the Migrant Education Progralll (ME P):' Therefore, OIG
                    lecollllllt:nus that I'RDE retulll $43,824 in MEP grant funds.

                             I'Rl>E IS lnVQugaung this finding lind gathering addmonlll m lOllllllllon regardmg
                    MEl' f<!Cruiting efforts. PROE is also working in dose cooperation with ME l' program
                    ofticlals from the U.S. Department of Education (USOE) to prepare a ,,;orrective action
                    plnn that will improve ..:urrcnt proc(.'(lurcs and institut<: new proc(.-Uurcs that will cn~uTl':
                    thai lederal migrant program funds arc spent in accordance with ft:derlll requirements
                    PROE is also revising its prior year purticipan\ ~Llunts,




       rh~ VCJ'~" ' "~'''      vf t;:du~a""n d"". !lot dl .CrImlllat~ l!l      It.   "C''''''h ~dllca"on ..1 ~~rvIL""    '"   "mplo~m~nL opJX.>rtllln"~, ,,>I
       lh~   II" ." "f , .. ~~ , .."1,,,- ~"x ""'C, lI,nh ",,,,,,,,..1 ""KI"    ",-",I~I"olId",,," pull"c .. 1 ,d"...   I~hl!,o"a   bc:hd. "r   Ilfl)' h""dlc ~ ~




                                                                                       7

                                                                                                         Final Report
Audit of PRDE’s Migrant Education Program                                                          ED-OIG/A02-E0019




                       PROE antio.;ll>ah;:S that these etlorts will continue through the Cooperative Audit
              Resolution and Oversight Initiative (CAROl) process and under the Compliance
              Agreement entered into on October 25. 2004. In the interests of efficiency and best use
              o f resources. PRDE requests that it be authorized to submit all MEP-related issues to one
              USOE office. Similarly, PRDE requests that all efforts to resolve financial liabilities, if
              any be undertaken through the existing CAROl process.

                      Recently. MEP program officials from USDE visited PRDE to assist in
              devduping a corrective action plan for PROE's migrant program. Under the corrective
              action plan, which is still being finalized with USDE assistance, PRDE will:

                 •   Conduct a re-interv iew process to detemline the defect rate of the current migrant
                     eligibility list.

                 •   Revise the child count data from prior years based on the results of the re­
                     interview process.

                 •   Id ..:ntifyall ineligible children previously identified as eligible and temlinating
                     thcir eligibili ty from MEl' and the receipt of M EP services,

                 •   With the assistance of USDE, correct any fiseal deficicncies occurring as a result
                     of incorrect eligibility dctenninat ions

                 •   TCmlinatc and/or downsize projects that serve ineligible migrant childrcn or lire
                     no longer relevant based on newest infOmlation,

                 •   Take any required personnel actions (such as temlination, demotion, etc.) based
                     on the infomlation gathered during the re-interview process, and

                 •   Establish and strengthen quality control for the migrant program. ineluding the
                     redesign of the Certificate of Eligibility form and the streamlining of the
                     documentation process.

                      In addition. as required under the action plans which are incorporated by
              reference into the Compliance Agreement. PROE is undertaking additional specific
              actions to ensure that the migrant program complies with all federal requirements. They
              arc as follows:

                 •   FOmlalize process for maintaining required documentation to support the
                     eligibility of students participating in the program. Ensure that fonnalizcd
                     process includes all documents req ui red under the statute

                 •   Train program directors, regional directors, and other appropriate migrant staff on
                     revised documentation maintenance requirements



              Puerto Rico Department of Education                                                           2




                                                            8

                                                                                                      Final Report
Audit of PRDE’s Migrant Education Program                                                       ED-OIG/A02-E0019




                 •    Conduct addItional staff traini ngs for all relevant MEP personnel on specific
                      eligibility requirements of migrant program, such as thc definition of a qualifying
                      move, agricultural or fishing activity, Principal Mcans of Livelihood (PMOL),
                      etc. to ensure the accuracy ofthc Certificates of Eligibility (COE)

                 ..   Conduct additional stafT trainings on specific provision of services requirements,
                      including. but not limited to:

                                .. priority for services,
                                • how MEP students should be served in schoolwide programs,
                                .. service 10 private school students. and
                                .. fiscal requiremcnts

                 ..   Consistent with monitoring plan, monitor rcvised documcntation process and
                      othcr migrant program requirements, deliver immcdiate t\X:hnical assistance if


                 ..
                      """''''
                      Review manual clarifying eligibility requirements of the migrant program. If
                      necessary, revisc manual

                      As thc auditors recognized, PRDE has already developed sp\X:ific recruiting
              procedures, described in PRDE's migrant program recruiting handbook. which accuratcly
              reflect all federal requirements. However, it appears that migrant personncl were not
              carrying out the policies contained in the handbooks. Therefore, this finding underscores
              the imponance of training and monitoring personnel to ensure they correctly implement
              federal grant programs.

                      The above activities will ensure employees have the proper knowledge, tools, and
              resources for implementing federal programs consistent with federal programmatic and
              fiscal requirements. These trainings will also address cross-cutting federal grants
              managcrt"!cnt issues so that only allowable activities are supported with federal funds.
              PROE is in the process of preparing trai nings specific to the MEP.

                      In addition, under the action plans incorporated into the Compliance Agreement,
              PROE is strengthening its monitoring and technical assistance process. This will ensure
              employces have access to high...quality technical assistance. Funher, weaknesses in
              federal programs will be identified and remedied in a timely fashion.

              Conclusion

                      I'ROE recognizes the important tasks before it in upgrading its grants
              management process. PRDE has collaborated with USOE to develop an action plan to
              continue to improve its MEl' program in a manncr that is consistent with federal progmm
              and grants management requirements. PRDE requests that the required actions to resolve
              this audit, the corrective actions undertaken with the program office, and the remedial
              actions under the compliance agreement be combined and that PRDE's work on resolving

              Puerto Rico Depanmt:!nt of Education                                                          3




                                                           9

                                                                                                 Final Report
Audit of PRDE’s Migrant Educati
                        Education
                               on Pr
                                  Program
                                    ogram                                                  ED-OIG/A02-E0019




               this audit be consolidated with its work with the program office and all efforts occur
               under the CAROl endeavor which is currently ongoing with US DE.

                      If you have any questions, please feel free to contact me.




                      Sincerely.


                     ~c$'~
                      Ethel M. Torres Arroyo
                      Director, Office ofFcderal Affairs




               Puerto Rico Department of EduClltion                                                4




                                                           10 

